No. 20-579
IN THE SUPREME COURT OF THE UNITED STATES
_________________
ZIMMIAN TABB, PETITIONER
v.
UNITED STATES OF AMERICA
____________________________
CERTIFICATE OF SERVICE
It is hereby certified that all required to be served have been served with copies of the
BRIEF FOR THE UNITED STATES IN OPPOSITION via email and first-class mail,
postage prepaid, this 16th day of February, 2021.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains 6920
words, excluding the parts of the document that are exempted by Supreme Court Rule
33.1(d). I declare under penalty of perjury that the foregoing is true and correct.
Executed on February 16, 2021.

Elizabeth B. Prelogar
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
February 16, 2021
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisor,
Case Management Specialist, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

Service List
John Patrick Elwood
Arnold & Porter Kaye Scholer LLP
601 Massachusetts Ave., NW
Washington, DC 20001
john.elwood@arnoldporter.com
Jared Alan McClain
The New Civil Liberties Alliance
1225 19th Street NW, Suite 450
Washington, DC 20036
jared.mcclain@ncla.onmicrosoft.com
Evan Andrew Young
Baker Botts L.L.P.
98 San Jacinto Boulevard
Suite 1500
Austin, TX 78701-4078
evan.young@bakerbotts.com
Ilya Shapiro
Cato Institute
1000 Massachusetts Ave., NW
Washington, DC 20001
ishapiro@cato.org

